No. 20-261

33U the Oupreme Court of the Oluiteb Otateg
JEFF SCHULZ, ELLEN SCHULZ, LIZ CEDERGREEN, DAVID MARTIN, LINDSEY MCDOWELL,
GEORGE NORRIS, NATHAN ORONA, AND KATHRYN OSTROM, AS TRUSTEES OF THE FIRST
PRESBYTERIAN CHURCH OF SEATTLE, A WASHINGTON NONPROFIT CORPORATION,
PETITIONERS
V.

THE PRESBYTERY OF SEATTLE, ET AL., RESPONDENTS
ON PETITION FOR WRIT OF CERTIORARI
TO THE COURT OF APPEALS
FOR THE STATE OF WASHINGTON

REPLY TO BRIEF IN OPPOSITION
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, as a member of the Supreme Court
bar, certify that the document contains 2,997 words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 16, 2020.

? sPA/6
1
/ 6 --;*
Steffen N. Johnson
Wilson Sonsini Goodrich & Rosati
Counsel for Petitioners

